<html>
<title> - EXAMINING INNOVATIVE SOLUTIONS TO CONTROL INVASIVE SPECIES AND PROMOTE WILDLIFE CONSERVATION</title>
<body><pre>[Senate Hearing 115-13]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 115-13

                   EXAMINING INNOVATIVE SOLUTIONS TO
                      CONTROL INVASIVE SPECIES AND
                     PROMOTE WILDLIFE CONSERVATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-361 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 15, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Nesvik, Brian, Chief Game Warden, Wyoming Game and Fish 
  Department, Cheyenne, Wyoming..................................     4
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Barrosso.........................................    32
        Senator Booker...........................................    33
        Senator Sullivan.........................................    34
Carter, Roberts, President and CEO, World Wildlife Fund..........    36
    Prepared statement...........................................    38
    Responses to additional questions from:
        Senator Barrosso.........................................    52
        Senator Booker...........................................    53
        Senator Sullivan.........................................    55
Kurth, Jim, Acting Director, Fish and Wildlife Service...........    59
    Prepared statement...........................................    61
    Response to an additional question from Senator Harriss......    71
    Responses to additional questions from Senator Sullivan......    71
Reaser, Jamie K., PhD, Executive Director, National Invasive 
  Species Council (Nisc) Secretariat, U.S. Department of the 
  Interior.......................................................    73
    Prepared statement...........................................    75
    Responses to additional questions from:
        Senator Barrosso.........................................    82
        Senator Harris...........................................    83
Ullrich, David, Chairman, Great Lakes Fishery Commission, Ann 
  Arbor, Michigan................................................    87
    Prepared statement...........................................    89
    Response to an additional question from Senator Barrasso.....   107

                          ADDITIONAL MATERIAL

Articles:
    The New York Times, Rachel Nuwer, March 13, 2017; High Above, 
      Drones Keep Watchful Eyes on Wildlife in Africa............   126
    National Geographics, Jani Actman, December 30, 2016; China 
      to Shut Down Its Ivory Trade by the End of 2017,...........   132

 
EXAMINING INNOVATIVE SOLUTIONS TO CONTROL INVASIVE SPECIES AND PROMOTE 
                         WILDLIFE CONSERVATION

                              ----------                              


                       WEDNESDAY, MARCH 15, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:15 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Sessions, Moran, Rounds, Ernst, 
Sullivan, Cardin, Sanders, Whitehouse, Merkley, Gillibrand, 
Booker, Markey, Duckworth, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today's hearing will explore innovative solutions to 
control invasive species and promote wildlife conservation.
    Not long ago, Google and Uber were nouns and verbs yet to 
be discovered, and Amazon was a rain forest in South America. 
Today we Google to search online, we Uber to move around a 
city, and we shop online at Amazon. Innovation changes 
everything.
    Since the turn of the twenty-first century, companies like 
these have rapidly changed our world and transformed every 
sector of our economy. The wildlife conservation sector is no 
exception. Federal and State wildlife agencies, wildlife 
conservation groups, private technology companies, scientists 
and researchers, farmers and ranchers, hunters and anglers, all 
are working together to create cutting-edge solutions to our 
most pressing wildlife conservation challenges.
    In Wyoming, we have a profound respect for our wildlife. We 
applaud the efforts of innovators to help us better conserve 
and manage our wildlife at lower cost. Wyoming is one of the 
most beautiful States in the Nation. People travel from around 
the world to come to Wyoming because our State's natural 
resources and wildlife are spectacular.
    Wyoming doesn't take our exquisite natural resources for 
granted. When I was in the State Senate in 2005, we established 
the Wyoming Wildlife and Natural Resource Trust that Governor 
Freudenthal, who was here testifying just a few weeks ago, 
signed into law.
    Our State wildlife managers grapple with many challenges 
that innovators can help us solve. For example, poaching is a 
problem in Wyoming. Hundreds of animals are taken illegally 
each year in the State, according to our Wyoming Game and Fish 
Department.
    Poaching is a problem in other States too, and it is 
pandemic overseas. The African elephant population has been 
reduced by almost 75 percent over the last 10 years, as 
poachers seek to cash in on the ivory trade. Just this month it 
was announced that one of Africa's last great tusker elephants, 
around 50 years old, with each tusk weighing around 112 pounds, 
was shot and killed by poachers. Over 1,300 African rhinos were 
poached in 2015 to satisfy demand for rhino horns in countries 
like China and Vietnam.
    Invasive species also present a threat to native wildlife, 
water resources, and our landscape. Cheatgrass is an invasive 
species that infests hundreds of millions of acres. Cheatgrass 
threatens soil retention, burdens already taxed water supplies, 
provides low quality foliage for wildlife and livestock, and 
fuels catastrophic wildfires.
    Wyoming also faces challenges from other invasive species. 
The list goes on and on.
    Invasive species are a problem for the Country. In Florida, 
there is the Burmese python, which can grow to more than 23 
feet and weigh up to 200 pounds. A few years ago, Senator 
Nelson brought the skin of a Burmese python to a Committee 
hearing. It was a striking demonstration. I don't know if you 
were here that day, but they had the table and then they had to 
have extensions on the table for the Burmese python to lay out 
so they could display it. And they grow up to 23 feet. That one 
that he had that day was less than 23 feet. It was still----
    Senator Carper. Was it alive?
    Senator Barrasso. It was not, no.
    [Laughter.]
    Senator Barrasso. We can bring the live one next time.
    [Laughter.]
    Senator Carper. A smaller one, maybe.
    Senator Barrasso. The U.S. Geological Survey says this 
invasive species has devastated up to 99 percent of the area's 
native deer, racoon, bobcat, and possum populations.
    In the Chesapeake Bay area, there is the Northern 
snakehead, which preys on native fish populations. The Midwest 
has the emerald ash borer, which continues to kill millions of 
ash trees across 29 States.
    Our Nation's innovators are developing cutting-edge 
technologies to help us effectively fight poaching, better 
manage wildlife, and control invasive species. A 2015 National 
Geographic article outlined a number of innovative technologies 
being used to promote conservation of many of the world's most 
endangered species, including a crowd funding to pay for drones 
to locate poachers, DNA analysis to identify the origin of 
illicit ivory supplies, deploying thermal imaging placed along 
perimeters of protected areas to notify authorities of the 
entry of poachers, and using mobile apps to assist wildlife law 
enforcement in carrying out their duties.
    In December, the National Invasive Species Council cohosted 
the Summit on Overcoming the Invasive Species Challenge. It 
publicized innovations to fight invasive species, including a 
fish passage that automatically extracts invasive fish from 
streams, genetic tools to curb the spread of invasive 
organisms, DNA technologies to provide early detection of 
invasive species, drones to gain spatially accurate high 
resolution imagery for the detection and monitoring of specific 
invasive species.
    So I look forward to hearing many innovative ideas 
conserving wildlife and controlling invasive species from the 
distinguished panel that we have today. I hope the hearing 
helps to set the stage for developing bipartisan legislation 
that will promote new innovative solutions to better battle and 
manage invasive species, to conserve wildlife, and to limit 
illegal poaching of rare and valuable species.
    I now ask our Ranking Member, Senator Carper, for his 
comments.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thanks for bringing 
us together. And thanks to all of our witnesses for joining us, 
as well, and for some of you traveling quite a distance. One of 
you, I think, wears another hat in the Wyoming National Guard. 
I am an old Navy guy and I said earlier, Navy solutes Army. So 
thank you, especially for that service, colonel.
    I would ask to be submitted for the record a publication 
article from the National Geographic that was dated, I think, 
December 31st last year, and it is an article by Jani Actman 
about some good news, and the good news is something that was 
followed on about a year after President XI and former 
President Barack Obama had come to an agreement about a year 
ago that China would shut down its ivory operations, export and 
import of ivory. And that is, I think, going to become 
effective at the end of this year.
    I was part of an Aspen Institute seminar in Tanzania about 
2 years ago. We had about 20 of our colleagues from all over. 
Were you there, Roger? There were about 20 of us there. And 
this was one of the issues that was foremost in our 
conversations, and I think some good work took place at the 
very top with the leadership of our two countries, and we are 
going to see the benefits of that later this year.
    But as was apparent from witness testimony during our 
recent hearing on the Endangered Species Act, the plants and 
the animals that share this planet with us are having a rough 
go of it in each of our States and around the world. This is an 
all-hands-on-deck moment in human history, and while the United 
States' Endangered Species Act may be a gold standard for 
species protection and recovery, it is what it has always been, 
and that is a safety net.
    Thanks to a terrific panel of witnesses here today, this 
hearing gives us a chance to focus on a couple of special 
challenges that our fish, wildlife, and plants face, as well as 
to celebrate our creativity in meeting those challenges and to 
buck up our efforts to find new and better ways to give them a 
chance to survive.
    I very much appreciate, Mr. Chairman, your commitment to 
stimulate that much-needed creativity.
    We will hear today some very worrisome stories about 
invading sea lamprey and ruthless poachers that will illustrate 
why it is so important that we are up to this challenge.
    These are not minor irritations. These are not 
inconsequential threats. Wildlife trafficking is a multi-
billion dollar enterprise globally, and invasive species cause 
more than a trillion dollars of harm every year. We have an 
unassailable obligation to muster the will, the intellect, and 
the resources to help our challenged fisheries, threatened 
ecosystems, as well as our treasured bears, our rhinos, and 
elephants survive in a world that is tough enough.
    I want to thank again each of our witnesses for helping us 
to better understand the fix that our fellow species are in, 
and for pointing us in a more enlightened direction. I 
especially want to express my appreciation of the work that 
each of our witnesses does through their organizations and 
their teams to fight back. As I said earlier, this is an all-
hands-on-deck situation. Your colleagues are all in, and we are 
grateful for that.
    Again, thanks, Mr. Chairman.
    Looking forward to hearing your testimony and our 
conversation.
    Senator Barrasso. Well, thank you, Senator Carper.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record, so 
I ask that you please try to keep your comments to 5 minutes.
    I am going to start by introducing Mr. Brian Nesvik, who 
has been serving since May 2011 as the Chief Game Warden at the 
Wyoming Game and Fish Department. He is also a colonel in the 
Wyoming National Guard. We had an opportunity to be together 
Thanksgiving 2009 in Kuwait. He was deployed as the commander 
of the 300th Field Artillery Unit, the Cowboy Cannoneers, 
running convoy operations into Iraq. He also served as the 
Regional Wildlife Supervisor at the Wyoming Game and Fish 
Department in 2010-2011. Before that he was a game warden for 
over 15 years in Western Wyoming. In 2010 he was the Wyoming 
Game Warden Association's President. He is also honored by the 
Safari Club International as Wildlife Officer of the Year.
    In many of these positions he has accumulated a wealth of 
experience in wildlife management, so I hope he will tell us 
about, based on his extensive experience, things that he has 
learned in balancing the interests of Wyoming, the citizens, 
and the abundant wildlife to effectively and efficiently 
address the challenges posed to the State by wildlife 
management.
    It is a distinct honor to welcome you. I know you have two 
of your children here today. Thank you so much for joining us 
at the Environment and Public Works Committee. Thank you for 
making it through the snow and to Washington yesterday, 
something, by Wyoming standards, is next to nothing, but it was 
enough to paralyze the city here.
    [Laughter.]
    Senator Barrasso. So, welcome and please proceed.

STATEMENT OF BRIAN NESVIK, CHIEF GAME WARDEN, WYOMING GAME AND 
               FISH DEPARTMENT, CHEYENNE, WYOMING

    Mr. Nesvik. Thank you, Mr. Chairman and Ranking Member 
Carper. Thank you for your gracious and welcoming introduction. 
I am hopeful that I can meet your expectations and play my part 
on this distinguished panel that we have here today to talk 
about something that in Wyoming is oftentimes front page news. 
In Wyoming, wildlife is a very important value that many of our 
folks invest a significant amount of time and energies into.
    As you indicated, Mr. Chairman, Wyoming is home to a very 
rich and diverse wildlife resource, and it is valued by an 
equally rich and diverse constituency. Much of the State's 
wildlife habitats remain in the same State they were in the 
1800's and continue to provide wide open spaces and remote wild 
country for western iconic species like the sage grouse, 
grizzly bear, moose, pronghorn antelope, and elk.
    The management, abundance, and quality of these resources 
are deeply intertwined and work symbiotically with multiple 
components of the State's economy, including agriculture, 
tourism, and mineral extraction. But more importantly, these 
resources directly influence the quality of life of Wyoming 
citizens and visitors from around the globe. Consequently, I 
have come to learn that our Nation's citizens deeply believe 
wildlife in the places they live are worthy of protection from 
all threats, including invasive species of plants and animals, 
and the illegal exploitation of wildlife, more commonly 
referred to as poaching.
    I am hopeful Committee members will come to better 
understand the tremendous potential that exists to improve 
techniques and tools to more efficiently fulfill our 
responsibilities to protect, conserve, and manage wildlife 
under the public trust doctrine and within the tenets of the 
North American Model of Wildlife Conservation.
    Today I will offer my perspective from the view of a State 
wildlife manager who works very closely with private 
landowners, State and Federal land managers to achieve our 
mission. And while I will reflect on my experiences from the 
State of Wyoming, I will also offer you some thoughts based on 
my experiences and knowledge with other State wildlife 
management agencies. I am very fortunate to have the 
opportunity to be deeply involved with the National Association 
of Conservation Law Enforcement Chiefs, also known as NACLEC, 
which affords me a much broader perspective. This network 
allowed me to reach out very quickly, within 24 hours, and 
receive feedback from across the entire Country, from many of 
the States represented by Senators here on the Committee, and 
this is feedback that informs my testimony here today.
    There are three particular areas of wildlife law 
enforcement and management innovations where I believe the 
future opportunities exceed those that have occurred in the 
past.
    First, I think you will hear more about this on the panel 
today because this is such an important capability, and that is 
the use of unmanned aerial vehicles, or UAVs. They have 
tremendous potential as tools to protect and manage wildlife in 
a much more efficient and effective manner. UAVs are capable of 
carrying onboard cameras, forward-looking infrared, or FLIR, 
night vision viewers, and other remote sensors. A key benefit 
to the use of these platforms is the ability to fly them with 
significantly less power and without placing people onboard.
    UAVs, with greater innovation and improvements in their 
technology, could provide conservation law enforcement officers 
a much better capability to conduct flights that would 
otherwise be possible in manned aircraft, but without having to 
place people in harm's way. With improved capabilities, UAVs 
could allow conservation officers across the Country to patrol 
critical winter ranges, waterways where wildlife and valuable 
wildlife exists more efficiently than could otherwise be done 
with a motor vehicle, an all-terrain vehicle, motorboats, 
horseback, or on foot.
    Likewise, UAV use has tremendous potential for many of the 
same reasons in collecting key information on wildlife 
populations. Some of those uses include aerial classifications 
of wildlife, monitoring, tracking their movements and 
migrations, as well as habitat mapping, all of these things 
that are currently done with the use of manned aircraft at a 
significantly higher expense.
    Second, wildlife forensics. Advancements in wildlife 
forensics and the analysis of evidence in wildlife cases likely 
has the broadest potential for impacts with global reach. In a 
day when the horns from a bighorn sheep poached in the northern 
Rocky Mountains may find its way to markets in other countries, 
the value provided by capabilities in wildlife forensics cannot 
be understated.
    Through both chemical and genetic analysis, forensic labs 
around the Country are able to provide real results that 
identify the species and source of a particular piece of 
evidence. Genetics analysis is coming very close to being able 
to match a particular piece of evidence, like a hair or a horn, 
to a geographic area of origin.
    And, last, looking forward at the FLIR technology that I 
mentioned earlier, at thermal imaging, they also provide 
significant potential for new ways to collect information on 
wildlife populations. You can reference photos and maps, 
images, in my written testimony and gain some understanding of 
these tremendous potentials that exist to sample wildlife.
    There are other things that I think are important but may 
not rise quite to the same priority. Those things, such as GPS 
tracking devices, still cameras to monitor wildlife movements 
in remote areas, and computer forensics to analyze suspect 
personal computers in wildlife cases are all important, but 
this FLIR technology I believe probably has a greater priority.
    In conclusion, Mr. Chairman and Ranking Member Carper, 
there is a need for innovation and development of new 
techniques in wildlife conservation and protection. While there 
have been landmark-type enhancements over the past couple of 
decades that are in use now, there are more opportunities for 
future development. New technology improves efficiency, reduces 
costs to the taxpayer, improves the safety of wildlife 
managers, and provides for more effective conservation.
    Opportunities are most likely to evolve and mature with 
partnerships between private industries, private landowners, 
governmental entities with a reasonable and practical 
investment of financial resources in all stages of their 
development. This has been the model that has been used 
successfully heretofore, and I believe that it has demonstrated 
some successes.
    Again, I appreciate this opportunity to share my thoughts, 
and I really look forward to listening to the testimony from 
other members of this panel and also the dialog with all of 
you. Thank you.
    [The prepared statement of Mr. Nesvik follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Senator Barrasso. Thank you so much for your very 
thoughtful testimony. Appreciate you being here today.
    We will next turn to Mr. Carter Roberts, who is President 
and CEO of the World Wildlife Fund.
    Thank you, Mr. Roberts, for being here today.

STATEMENT OF CARTER ROBERTS, PRESIDENT AND CEO, WORLD WILDLIFE 
                              FUND

    Mr. Roberts. Thank you, Chairman Barrasso and Ranking 
Member Carper, members of the Committee. Thank you for the 
opportunity to be here today.
    WWF is the world's largest conservation organization. We 
operate in 100 countries; we have 5 million members worldwide; 
and we work with the private sector, governments, civil 
society, and communities around the world.
    When you read in the newspaper, as we did last week, that a 
couple of individuals broke into a zoo outside of Paris, found 
a white rhino, killed it and sawed off its horn, you know that 
we do not live in ordinary times.
    Chairman Barrasso already stole my thunder on the scale of 
the poaching epidemic that sweeps the world, but it ranks right 
up there among the biggest illegal trade activities out there. 
And the other shoe dropped when the intelligence communities 
did a research study of the connection between wildlife crime 
and the illegal trade in arms and human trafficking and drugs, 
and at this point the trade in wildlife is bound up in all of 
those other criminal activities. It is conducted by big 
criminal syndicates, and it is sophisticated and it is growing 
around the world.
    The U.S. has played a leadership role in two areas: 
conservation and technology. And I am delighted to talk about 
how the U.S. is leading in those areas around the world.
    Rangers around the world face two great challenges. One is 
they can't see at night, when the poachers are most active.
    Mr. Chairman, you are now holding a miniature version of a 
FLIR camera that enables you to see the thermal image of 
anybody in the room. There is a larger version of that camera 
that we have installed in places like the Maasai Mara and in 
the Kenya Rhino Reserve where you can see poachers a mile away 
in the dead of night. In parts of the world where local 
practitioners are turning down technologies as tricks and toys, 
they love this technology because it has enabled them to amp up 
their efforts to catch poachers at a time when they have 
usually evaded detection; and we are now installing these 
cameras on jeeps, on the top of towers, and places in Africa, 
and it is making a huge difference.
    The other application of FLIR is being mounted on UAVs, and 
the New York Times yesterday had some great coverage of our 
recent partnership with Google, a $5 million partnership to use 
unmanned aerial vehicles with FLIR technology to track 
poachers, particularly around the rhino poaching crisis in 
Southern Africa.
    At some point, I would encourage all of you to watch the 
video coverage of that, and we can come back and do a show and 
tell. Both of that coverage and the coverage using the FLIR 
camera to capture poachers in the wild, but it is dramatic and 
it is real and is making a difference.
    There is another way that technology is important in our 
work, and that is through the illegal trade in animals through 
Internet trade platforms. And with traffic we are now working 
with eight global tech companies--eBay, Etsy, Microsoft, 
Gumtree, Pinterest, Yahoo!, and Twitter--in adopting a 
framework to prevent the illegal trade in wildlife through 
their sites.
    We are using and testing ongoing technologies, and there 
are a couple of constraints. One is the ability for civil 
society to fund and scale-up these technologies. That unit 
costs $2,500 just for--don't drop it--just that unit. The 
larger ones cost about $15,000. We need the tech community, the 
private sector to step in and help us scale-up.
    And then we also need the U.S. Government to continue to 
fund the investment in conservation through the ongoing support 
and funding for wildlife trafficking, including the END 
Wildlife Trafficking Act and the National Strategy on 
Combatting Wildlife Tracking, and the ongoing support for 
biodiversity conservation around the world through agencies 
through USAID and the Fish and Wildlife Service.
    There are other ways the U.S. can help through 
unconventional partnerships with the Department of Defense in 
repurposing technologies that have dual use so they can aid in 
efforts to stop poachers and wildlife traffickers, and to spur 
innovation through challenges like the USAID wildlife 
technology challenge, of which we were a part.
    What we found with challenges is they work beautifully if 
you have a challenge to identify the technology, but you have 
also thought about the back-end, providing the accompaniment 
and the support to implement that technology in the field on an 
ongoing basis.
    Meeting our goals will require the sustained support and 
training for rangers, resource managers and communities, 
individuals like my colleague from Wyoming and his counterparts 
around the world. We have seen how powerful these solutions can 
be. We know the United States is well placed as a leader in 
both innovation and conservation. We are heartened by the 
Committee's interest in this subject, and I hope you will 
continue to find ways to lend your support.
    Thank you again for the opportunity to be here today.
    [The prepared statement of Mr. Roberts follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    Senator Barrasso. Well, thank you very much for your 
testimony, Mr. Roberts.
    We will now turn to Kim Kurth, who is the Acting Director 
of the Fish and Wildlife Service.
    Thanks for joining us.

  STATEMENT OF JIM KURTH, ACTING DIRECTOR, FISH AND WILDLIFE 
                            SERVICE

    Mr. Kurth. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee for the opportunity to 
testify on innovations and partnership that support wildlife 
conservation.
    The Fish and Wildlife Service works with our partners to 
ensure current and future generations are able to enjoy the 
diversity of wildlife of America. Their enjoyment can take many 
forms, whether it is through hunting and fishing, wildlife 
observation, or even just the knowledge that wildlife exists.
    Conserving wildlife is a complex endeavor. To address 
challenges ahead, the Fish and Wildlife Service must work 
effectively with our partners, both public and private, across 
both large and small landscapes.
    We have seen great successes, but we realize there is still 
work to do in the future. My written testimony touches on a 
number of the ways we are working to transform the way we 
deliver conservation to benefit fish and wildlife species, and 
the people and communities who inhabit the landscapes with 
them. I will share just a few examples with you here.
    Successful long-term conservation depends on a 
collaborative effort that focuses on both public and private 
lands. The primary tool for collaboration with private 
landowners that the Service uses is our Partners for Fish and 
Wildlife program. Many private landowners are eager to work 
with the Service to help them to be the best possible stewards 
of their land they can. The Partners program has worked with 
more than 50,000 willing landowners since 1987 to provide 
financial and technical assistance to improve habitat and 
productivities on millions of acres of private lands, 
benefiting hundreds of species of native fish and wildlife, and 
we look forward to the opportunities that lie ahead.
    Invasive species present a major threat to native fish and 
wildlife species, as well as to the economy. The Service has 
worked to develop innovative partnerships, management 
techniques, and technological advances to control the spread of 
invasive species, attempt to eradicate them, and to prevent 
their introduction into sensitive areas.
    Invasive species are a constant threat, so the Service has 
worked to streamline its injurious species listing process 
under the Lacey Act and develop decision-support tools to help 
us prevent further introduction of invasive species. This 
includes a peer-reviewed model to help us as quickly predict 
the species most at risk of becoming invasive here in the 
United States.
    We are also using molecular-based surveillance 
technologies, such as environmental DNA, or eDNA, to detect 
invasive species earlier in the invasion process. We are the 
lead Federal agency implementing eDNA monitoring to detect the 
spread of invasive Asian carp in the Chicago area waterway 
system and in the Great Lake tributaries.
    We have developed invasive species strike teams, highly 
trained rapid responders who deploy to national wildlife 
refuges across the Country to attack new outbreaks of invasive 
species before they gain a foothold, cause major damage, and 
subsequently cost taxpayers dollars.
    In Wyoming, we are working with local landowners and 
conservation partners to investigate the effectiveness of 
naturally occurring weed-suppressing bacteria to combat 
cheatgrass infestations. Research is underway in the State to 
better understand the usefulness of these biological controls.
    Combatting wildlife trafficking is another area of the 
Service's work where we are developing innovative solutions. 
With wildlife crime threatening wildlife populations, we are 
partnering with law enforcement using advanced evidence 
collection, forensics analysis, and intelligence to target and 
disrupt criminal organizations involved in poaching and 
wildlife trafficking.
    This work also includes technology to detect poaching, 
detection dogs to track evidence from poaching scenes and find 
illegal wildlife in shipments, and new genetic analysis 
techniques to identify the geographic origin of seized wildlife 
products.
    We have also established innovative public-private 
partnerships with Jet Blue and Discovery Communication to raise 
awareness for wildlife trafficking and drive down consumer 
demand for illegal wildlife products.
    Simply put, our mission to sustain America's natural 
heritage for the enjoyment of future generations depends on our 
ability to strengthen and expand our partnership work, using 
the latest innovations in technology and wildlife management 
practices.
    Thank you again for the opportunity to testify, and I would 
be happy to answer your questions at the end of the panel. 
Thank you.
    [The prepared statement of Mr. Kurth follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   
    Senator Barrasso. Well, thank you so much for being with us 
and sharing your thoughtful testimony.
    I would like to now turn to Dr. Jamie Reaser, who is 
Executive Director of the National Invasive Species Council, 
the U.S. Department of Interior.
    Thanks for joining us.

STATEMENT OF JAMIE K. REASER, PHD, EXECUTIVE DIRECTOR, NATIONAL 
INVASIVE SPECIES COUNCIL (NISC) SECRETARIAT, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Ms. Reaser. Mr. Chairman, Ranking Member Carper, members of 
the Committee, thank you for the opportunity to appear before 
you today at this hearing on innovations in fighting invasive 
species and conserving wildlife. This is a particularly 
important topic for the National Invasive Species Council, 
since fostering innovation is one of the Council's priority 
areas of work.
    I will summarize my written testimony, which has been 
provided for the record.
    Invasive species pose threats to all aspects of national 
security and well-being, and have particularly devastating 
impacts on the environment, health, infrastructure, and the 
economy. The National Invasive Species Council, known as NISC, 
is the interdepartmental body charged with providing the vision 
and leadership necessary to coordinate, sustain, and expand 
Federal efforts to safeguard the interests of the United States 
from the impacts of invasive species. The Council is comprised 
of the senior-most leadership of 13 departments and 3 White 
House offices.
    As you know, the invasive species issue is complex and 
challenging. It requires a unified, coordinated approach across 
all levels of government and in partnership with affected 
communities. It also requires a ``we can do this'' perspective. 
Investments in technology innovation can be game-changing. They 
are demonstrating that seemingly insurmountable challenges can 
be overcome with substantial returns on investment. Technology 
innovation is helping us change the conversation from ``can't'' 
to ``can'' and ``let's get it done now.''
    The current priorities of the Council's work to advance 
technology innovation are included in my written testimony. I 
would like to make a few general points about technology 
innovation in the context of invasive species.
    First, in order to be effective, advancements in technology 
innovation don't require substantial investments in time or 
money. There are numerous low-tech innovations being made with 
relatively rapid, cost-effective outputs.
    Many of the technologies that exist that could help us 
prevent, eradicate, and control invasive species already exist, 
but they were developed for other applications.
    Opportunities are emerging to put a comprehensive toolbox 
together to address some of the most important invasive species 
challenges.
    Fourth, best practices for technology innovation are 
context-specific. One approach will not fit all.
    And, finally, in order for technologies to make a real 
difference on the ground, we need to advance scientific 
research, as well as regulatory systems, public education 
initiatives, and the international activities that create and 
maintain the enabling environment for technology application.
    My written testimony lists several species-specific 
examples that support these points. I am just going to mention 
two here.
    Opportunities for reducing the spread and impact of 
cheatgrass in western rangelands are being improved through a 
combination of surveillance and mapping technologies, as well 
as biocontrol, chemical control, and genetic engineering, for 
example, to reduce herbicide resistance.
    In eastern wetlands, opportunities for controlling, perhaps 
even some day eradicating, nutria are being improved through 
advancements in snare, trap, and attractant technologies, as 
well as the use of artificial resting platforms, camera traps, 
DNA sampling, detector dogs, and what are referred to as Judas 
nutria, nutria that are captured, sterilized, then radio-
collared, re-released, and followed in the hope that they will 
lead trackers to other nutria.
    This is a particularly timely hearing for NISC. As already 
mentioned, we recently cohosted an Innovation Summit on 
invasive species, the first-ever meeting to address technology 
innovation for invasive species from scientific, regulatory, 
and social perspectives. More than 300 people participated, 
including invasive species scientists and managers, technology 
innovators, experts in technology innovation, and technology 
grant makers.
    A report that summarizes the key points made by the 
participants and identifies opportunities for Federal 
leadership on technology innovation explicitly in the invasive 
species context is anticipated at the end of the month.
    In conclusion, I would like to underscore the fact that 
investments in technology innovation and application can 
represent a long-term cost savings compared to the approaches 
currently available to address invasive species challenges. 
These investments can have substantial payoffs, potentially in 
the millions of dollars for a single species.
    Mr. Chairman, Ranking Member, members of the Committee, 
thank you for the opportunity to testify. I am happy to address 
the Committee's questions regarding NISC's role in advancing 
technology innovation so that we can change the conversation 
from ``we can't'' to ``We can do this. Let's get it done.''
    [The prepared statement of Ms. Reaser follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
        
    Senator Barrasso. Dr. Reaser, thank you very much for 
joining us, for sharing your testimony.
    I would like to next turn to David Ullrich, who is Chairman 
of the Great Lakes Fishery Commission.
    Thanks for joining us today, sir.

   STATEMENT OF DAVID ULLRICH, CHAIRMAN, GREAT LAKES FISHERY 
                COMMISSION, ANN ARBOR, MICHIGAN

    Mr. Ullrich. Thank you very much and good morning, Chairman 
Barrasso, Ranking Member Carper, and all members of the 
Committee today. My name is David Ullrich, as the Chairman 
said. The Great Lakes Fishery Commission has been actively 
engaged in the management of sea lamprey for many, many years.
    The Great Lakes and St. Lawrence region is an economic 
powerhouse for the United States and Canada. The Fishery alone 
generates roughly $7 billion in economic activity annually for 
the Great Lakes. Unfortunately, the Great Lakes are under 
assault from over 180 different types of invasive species that 
inflict more than $5.4 billion in annual damages to our 
resources.
    The history of aquatic invasions has shown that people are 
left with few options to control a species once they are 
introduced and spread. Innovative solutions, which is why we 
are here today, can make a big difference. The highly 
successful sea lamprey program provides an excellent example.
    As you can see from the picture, they are not pretty. They 
are gruesome, in fact, and they attach to fish with their 
suction cup mouths. They dig their teeth into the sides for a 
grip, and then their tongues are used to rasp in through the 
scales and the skin with their sharp tongue, and then they 
inject an anticoagulant in and then they remove the body fluids 
from the fish.
    Senator Carper. Mr. Ullrich.
    Mr. Ullrich. Yes, sir.
    Senator Carper. What is the circumference or the diameter 
of the photo?
    Mr. Ullrich. Oh, I don't know, they would be about a couple 
inches, something like that. Not real big. They are long and 
skinny, but they attach right on the side and then do their 
work.
    They enter the Great Lakes through the shipping canals and, 
having no predators and lots of food, inflicted horrendous 
damage on the fishery and the hapless fishers.
    By the way, when you join the Fishery Commission, you are 
required to have one put on your arm for a little while and see 
if you are tough enough to be on the Commission.
    [Laughter.]
    Senator Barrasso. I volunteer Senator Carper as a new 
member of the Commission.
    [Laughter.]
    Mr. Ullrich. Do we have a sea lamprey?
    Senator Carper. We did that in my fraternity initiation.
    Mr. Ullrich. OK. Very good.
    [Laughter.]
    Senator Carper. Second to waterboarding.
    Mr. Ullrich. OK.
    Over the years, we have reduced the lamprey populations by 
90 percent in most of the Great Lakes. In fact, we are at a 30-
year low in Lake Huron, a 20-year low in Lake Michigan, and 
near targets in two of the other three lakes.
    As the chart next to me, now the chart, will show you, we 
have gone from losing 100 million pounds of fish per year to 
only 10 million pounds. That is still too many, but we have 
made tremendous progress.
    The $7 billion Great Lakes Fishery would not exist were it 
not for the sea lamprey control program. The Commission and its 
partners have achieved this remarkable level of success through 
innovation, persistence, technology, and sustained binational 
commitment. We work hand-in-glove with the Canadians on this.
    The work started in the 1930's and 1940's on this, and the 
first breakthrough was in 1957, where one chemical, a 
lampricide, was found out of 10,000 different chemicals that 
really got in and destroyed the sea lampreys. We integrated 
barriers into the work in 1970 to block their migration and 
spawning habits. We continue to use traps and innovate these 
traps, and also have developed innovative techniques in larger 
bodies of water on the application of the lampricide.
    Several approaches are emerging that are particularly 
promising, and this is what is especially important for the 
future, and that is the sea lamprey genome has been sequenced. 
This achievement will allow science to customize control 
techniques and exploit the sea lamprey's life cycle. We have 
also detected pheromones, which sea lampreys use as odors to 
detect in minute concentrations what directions they ought to 
go.
    We are concerned about dam removals. Although it is a good 
thing for fish passage, it is a bad thing for lampreys; it 
opens up more areas for spawning. So we are trying to build 
some smart fish passage systems.
    It would not be the successful approach it is today without 
innovative governance arrangements. The Fishery Commission is 
accountable for making this happen with Fish and Wildlife and 
Department of Fisheries and Oceans. We know that a single 
invasive species can cause huge damage. Prevention is the key 
and we need to continue to work to find more innovative 
approaches in the future.
    Thank you very much for allowing me to testify today.
    [The prepared statement of Mr. Ullrich follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. Well, thank you very much for your 
thoughtful testimony.
    I appreciate all of the witnesses.
    We will start with some questions. Some of the Committee 
members may need to come and go, so if we don't have a chance 
to get to all the questions, some may be submitted in writing, 
and we would ask you to respond to those.
    But I wanted to start with Mr. Kurth and then ask Mr. 
Nesvik to weigh in as well.
    Mr. Kurth, in your written testimony you highlight the 
success of the Partners for Fish and Wildlife program. You 
called it a primary tool for collaboration with landowners. 
Should this program be reauthorized? What role should the 
program have when it comes to fighting invasive species and 
promoting wildlife conservation?
    Mr. Kurth. The Partners for Fish and Wildlife program, in 
my opinion, is one of the most effective programs the Fish and 
Wildlife Service has. We not only do great work, but we 
leverage our investments sometimes 4 to 1 or even more. The 
Administration hasn't taken a position on an authorization 
bill, so I can't comment on specific authorization, but 
certainly the Fish and Wildlife Service wants to see this 
important conservation work continue into the future.
    Senator Barrasso. So, Mr. Nesvik, can you tell us if you 
agree that the Partners for Fish and Wildlife is an effective 
tool and is working for Wyoming?
    Mr. Nesvik. Yes. Thank you, Mr. Chairman. I would agree 
with Mr. Kurth. Yes, in our experiences in Wyoming over many, 
many years of working with landowners, this program has been 
marked with success. Landowners particularly like this program 
because it is voluntary, the matching requirements are more 
flexible than some of the other government programs, and it is 
really focused work that is partnership-focused.
    There is a project that is currently going on in 
partnership with the National Invasive Species Council, private 
landowners, the Department, the University of Wyoming, our weed 
and pest districts, BLM, Forest Service, NRCS, many, many 
partners to focus on new biological controls for some 
invasives. So that is just one of many, many examples. In 
Wyoming, though, in the past, this Partners program has focused 
mainly on wetlands and then also on invasive species work with 
private landowners.
    Senator Barrasso. Thank you.
    Mr. Roberts, you mentioned the article from the New York 
Times yesterday that I have here. It is a watchful eye on 
wildlife coming out of Malawi. Very thoughtful. It features the 
World Wildlife Fund's partnership with Google. As you 
mentioned, use of imaging and drones to combat the poachers. It 
mentions some limitations of the drones, like the need for 
human operators who may be distracted to monitor other activity 
in order to detect poachers and raise alarms.
    Noted in the article are nonprofit university researchers, 
as well, developing software that can be differentiating 
between humans and animals so the rangers can be automatically 
alerted when there is a good chance that poaching is occurring 
and they are detected.
    Do you believe things like the XPRIZE competition could 
encourage innovative efforts that would then maximize the 
ability of drones to fight poaching and to develop maybe other 
technologies that could also help solve wildlife conservation 
challenges?
    Mr. Roberts. Yes. Having been in the Maasai Mara with the 
FLIR cameras late at night, you do see poachers. But you are 
also reminded by how many animals there are out there, and it 
is like Grand Central Station. New technologies, these XPRIZES 
are extremely helpful. We were a part, through traffic of 
USAID, XPRIZE competition that ended up generating some 
incredible breakthroughs on funding whistleblower programs, 
machine learning technologies to help track illegal trades, 
genetic programs to help track the trade in pangolins which is 
like an armadillo on steroids. It is the most traded animal in 
the world. And we love these XPRIZE competitions as long as 
when you award the prize, you have thought about how do you 
implement the winner over time, and that requires capacity and 
accompaniment on the ground.
    Senator Barrasso. Thank you.
    Mr. Nesvik, on technology we talk about the issue of 
drones. Clearly, drones can help reduce poaching. Can you tell 
us what steps Wyoming Game and Fish Department is taking to 
ensure respect for our constitutional rights, the 
constitutional rights of Americans when deploying advanced 
technology like drones?
    Mr. Nesvik. Certainly, Mr. Chairman. First of all, the work 
that we have begun to explore, we haven't had a lot of 
opportunities because of the limitations of lower cost UAV 
technology. We haven't had a tremendous amount of opportunity 
to use them with a law enforcement application to this point, 
but some of the things that we have considered as we have 
thought through that is the fact that the activities that we 
would focus UAVs on would be activities that we would otherwise 
be able to do in a manned aircraft; you would simply be doing 
it with a lighter payload and without anybody in the airplane.
    Second, in a very targeted and focused manner in places 
where illegal activity is known to exist, for example, in 
Wyoming, in our western mule deer winter ranges, we know every 
year that there are folks that are out there attempting to take 
advantage of very vulnerable big mule deer that are worth a lot 
of money and that are also worth a lot to those folks that 
choose to exploit them. So focusing the use of UAVs in places 
where we know there is criminal activity on public lands helps 
to really ensure that we are staying well within the bounds of 
the Constitution.
    Senator Barrasso. Thank you very much.
    Senator Carper.
    Senator Carper. Thanks.
    I mentioned during my opening statement the publication 
National Geographic late December talking about the agreement 
that had been reached by our president and the former president 
of China, and it was actually a very encouraging article. 
Should we be encouraged by that agreement in terms of what it 
means for the trade of ivory in that country, those countries, 
our Country and around the world? Should we be encouraged or 
not?
    That would be for anybody.
    Mr. Roberts. I would be happy to address that.
    Senator Carper. Please.
    Mr. Roberts. It was a groundbreaking commitment on the part 
of China. They committed to close their market within a year, 
by the end of 2017. China is by far the biggest market. And so 
that is going to make a huge difference. It is enormously 
encouraging.
    But the wellspring of that announcement on the part of 
China was the announcement on the U.S. to do the same, and the 
U.S. moved first. So these bilaterals between countries are 
essential. And now we just need to help the Chinese government 
execute against this commitment, and our program in China is 
working to do that by creating lots of public awareness and 
demand for non-ivory products as wedding gifts and beyond.
    Senator Carper. All right, thank you.
    Mr. Roberts. Huge gamechanger.
    Senator Carper. Good. Thank you.
    If we were able to pursue all the ideas that you discussed 
here in your oral testimony and your written testimony today, 
if we were able to pursue all those ideas today, how might that 
affect the number of species that end up on threatened or 
endangered species lists?
    Would you like to go first, Mr. Ullrich?
    Mr. Ullrich. I am sorry, could you----
    Senator Carper. No, I only say it once.
    Mr. Ullrich. OK.
    [Laughter.]
    Mr. Ullrich. The endangered species or the invasive 
species? I am sorry, I was----
    Senator Carper. I will just restate the question, OK?
    Mr. Ullrich. Yes. Thank you.
    Senator Carper. You have given us a lot of ideas in your 
written testimony and your oral testimony. If we were able to 
pursue them all, or most of them, that you discussed today, how 
might that affect the number of species that end up on 
threatened and endangered species lists?
    Mr. Ullrich. Boy, that would be hard to tell. I would have 
to get back to you on that one. We really have to prioritize on 
the ones that we deal with, as opposed to dealing with all of 
them. And certainly, sea lamprey has been the top concern. The 
biggest threat coming in, which really could have an effect on 
a lot and perhaps lead to endangered species, is the Asian 
carp, and a tremendous amount of work has been put forward 
toward that. So holding back the invasive species does, I would 
hope, keep the endangered species list shorter.
    Senator Carper. All right, thank you.
    Others, please. Mr. Kurth.
    Mr. Kurth. I think that the problems around the world vary. 
I think that the illegal hunting and trafficking in wildlife in 
other countries, with these technologies we can greatly, I 
think, reduce the threat to many of these species. Of course, 
in the United States, legal hunting is an important management 
tool for us and it doesn't pose threats like that. But overall, 
as there continues to be a growing population and stress on 
habitat, we are going to have to find techniques to maximize 
our management capability.
    In this day and age, wildlife need management, and the 
secret for us to keep things from getting in trouble is to have 
good habitat that is well managed by professional managers.
    Senator Carper. All right, anyone else on this question? 
Yes. Dr. Reaser?
    Ms. Reaser. I am happy to take the invasive species 
perspective. There was a study done over a decade ago now, 
maybe 15 years ago, by David Wilcove and colleagues that 
estimated that 42 percent, at least, of the endangered species 
that are listed are driven in that direction by invasive 
species impacts. So anything that we can do to reduce the 
current pressures that invasive species have on our native 
flora and fauna, and prevent new invasives from entering the 
Country through these technologies should reduce not only the 
pressures on those animals and plants that are currently 
listed, but on those that might be heading toward the listing 
process.
    Senator Carper. All right, thanks. If we have a chance for 
a second round, I don't know that we will, but, Colonel Nesvik, 
I want to come back and ask you to talk with us about someone 
might hear about this hearing today and hear us discussing the 
Partners for Fish and Wildlife, how might they participate. It 
sounds like a lot of folks are, and it is good for them and for 
our planet. So I want to come back and ask you more about that. 
Thanks so much.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Carper. By the way, we have another colonel here, 
right over there.
    Senator Inhofe. We do?
    Senator Carper. Army. Army.
    Senator Inhofe. We do, we do.
    First of all, let me say to Mr. Kurth I am glad we talked 
for a little while about the Partners for Fish and Wildlife, 
because when Dan Ashe had that job, during his confirmation I 
extracted from him a commitment to come out to Oklahoma, and he 
actually did two of them out there in western Oklahoma. And I 
really believe, in spite of the fact that, as a general rule, 
Democrats normally like to have things emanating from 
Washington, but I think it was an eye-opening experience.
    Did you ever talk to him about the trips that he made out 
there? One was in Woodward, where I happened to have been this 
past Sunday; and the other in the southwestern part of 
Oklahoma. But it showed very clearly that the owners, the 
landowners are every bit as, are more concerned about the 
conservation issues on their lands than are the bureaucrats in 
Washington.
    Mr. Kurth. Senator, I have talked to Dan many times about 
those trips, and I think he found those very insightful and 
instructive. People who make their living off the land, by the 
very nature of their business, have to be good stewards. A 
rancher is not going to make a living if he is not properly 
managing his grazing regimes. There is a saying that became 
famous during the sage grouse planning that is what is good for 
the bird is good for the herd. That came from a rancher in 
Oregon.
    Senator Inhofe. In a minute, I will talk about the burying 
beetle, and we will see if that fits in.
    Mr. Kurth. Well, the burying beetle is a little different 
critter.
    [Laughter.]
    Mr. Kurth. I didn't think we would avoid that one today.
    But, yes, we work hand-in-hand with ranchers. Two-thirds of 
the wildlife habitat in this Country is on private land.
    Senator Inhofe. And the owner of the land is the one who is 
most concerned about it. I think that was a good move that we 
made, and we have been trying to enhance that program in 
answering the question. If you find out for any reason you 
don't think it is going to be authorized, let us know, because 
we can encourage that.
    I want to just mention one thing about the hunters and the 
fishermen, the contributions that they make, the fact that not 
just in the funding through the duck stamps and all the 
contributions they make through excise tax on firearms and so 
forth, but they really are involved. And I would ask perhaps 
both of you, Mr. Nesvik and Director Kurth, if you can both 
speak to the hunting and fishing communities and the 
conservation and the positive impact they have, and then maybe 
even move on to how they can be used more effectively in the 
invasive species. I know that in our case, in the State of 
Oklahoma, wild boar and some of these others, we are in a 
position to be used better than we are being used now.
    Any comments that you can make on that?
    Mr. Kurth. Well, certainly sportsmen are the original 
conservationists in this Country, going back to President 
Theodore Roosevelt, a founding member of the Boone and Crockett 
Club, and their work all across this Country----
    Senator Inhofe. What club?
    Mr. Kurth. The Boone and Crockett Club, a great sportsmen's 
organization that still exists today.
    Senator Inhofe. I don't belong to that one, I don't think.
    Mr. Kurth. He established our first national wildlife 
refuge and 50 other national wildlife refuges. Sportsmen have 
been involved in almost every aspect of our business, from 
being members of local hunt clubs that sponsor projects to 
working with us on invasive species. We have active volunteers 
in invasive species, and they do more than just train.
    One of the easiest things that takes manpower is to 
actually go out and map where these invasive species are so 
strike teams and others can come behind, and we can give 
sportsmen or other volunteers a GPS unit and they can take a 
stroll out on the land and help us to learn and map so our 
treatment can be more effective. There is almost no end to the 
number of innovative ways that sportsmen help.
    Senator Inhofe. Do you agree with that, Mr. Nesvik?
    Mr. Nesvik. Yes, Senator, I do. And I can tell you that 
from my experiences in Wyoming and other western States, 
including Oklahoma, I have colleagues in Oklahoma that I have 
worked with often, and I can tell you that there is no one more 
interested in wildlife management agencies doing a good job of 
protecting their resource than sportsmen. And, as Mr. Kurth 
indicated, since the beginning of wildlife conservation in our 
Country, they have been a major part of that and really the 
founder.
    Senator Inhofe. They are also paying for a lot of that 
stuff, too.
    Now, I do want to get around to one question, and I would 
like to have you, Mr. Kurth, provide an update on where the 
petition to delist the American burying beetle stands today and 
when we should expect the 12-month review of the lesser prairie 
chicken petition.
    Mr. Kurth. Well, Senator, let's start with the beetle. As 
you know, in March 2016 the Service made a substantial finding 
on the petition to delist the American burying beetle. Prior to 
receiving that petition, we had initiated a species status 
assessment to support future conservation decisions, recovering 
planning. That status assessment is drafted and is undergoing 
scientific peer review now, and we expect it to be complete 
this summer, and that status assessment will be the scientific 
underpinning.
    Senator Inhofe. All right, this summer. Let's go, then, on 
to the 12-month review of the lesser prairie chicken.
    Mr. Kurth. Yes. In that process, we expect to be able to 
make that determination by this September. We are awaiting the 
annual report from the Western Association of Fish and Wildlife 
Agencies and the result of their survey work that they have 
been doing here this spring to update and inform that species 
status assessment.
    Senator Inhofe. Yes. We will be standing by. Thank you.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you all.
    I would like to followup on Senator Inhofe's comment about 
the important role of sportsmen in tracking and gathering 
information for us by echoing that fishermen have an equally 
valuable role. I very much hope that, as we proceed with the 
initiative, Mr. Chairman, which I appreciate very much, that we 
make oceans and coasts a significant part of this, as well as 
upland and fresh water.
    As you know, our side of the aisle is heavily coastal. I 
think only Senator Sanders and Senator Duckworth aren't ocean 
coastal, and they have major lake coasts. On the other side of 
the aisle there tend to be a lot of, sadly, landlocked States. 
Their good news is that, with climate change, the ocean gets a 
little closer every day.
    [Laughter.]
    Senator Whitehouse. The focus on oceans and coasts, though, 
is I hope one that we will maintain. We have seen enormous 
invasive species that are actually not just moving because of 
climatic changes that allow them new habitat that they didn't 
have access to before, but we see global shipping exploding and 
we see ballast water and things like that allowing for the 
transit of invasive species in a way that the land doesn't 
quite match. So I hope that we can focus on that.
    I particularly want to thank the members of this Committee 
who are members of the Oceans Caucus, and I thank Senator 
Inhofe for joining our Oceans Caucus just recently, because one 
of the first things we worked on was pirate fishing; and we got 
four treaties passed, which may not seem like a big deal, but 
we did it in an afternoon. And to timespan the previous four 
treaties the Senate passed, you would have to go back 9 years. 
And we got the enabling legislation passed. And now, with those 
treaties and those laws and technology, we are starting to see 
some real damage done to pirate fishing.
    One of the worst places was Indonesia. It is an archipelago 
of a lot of islands with a huge amount of ocean around it. 
Their fisheries minister, I think, has sunk more ships in this 
century than the United States Navy has. She is just constantly 
blowing up pirate fishing vessels and putting them to the 
bottom of the ocean. She actually had the Chinese more or less 
attack one of her vessels and carve away the one that they were 
trying to tow in to sink because it was a Chinese-based pirate 
fishing vessel.
    But we are seeing satellite imagery and computers that can 
track the satellite imagery and look for fishing patterns. We 
are seeing technology that looks for when the transponders turn 
off in boats as a signal that now they are up to bad behavior 
because they don't want their transponders to track them. We 
are seeing signals in fish, particularly high value fish that 
you use to sort of track their whereabouts and see where they 
go, that suddenly end up in an amazingly straight line out of 
their habitat, going for days across the ocean toward a 
specific port, and then you know, guess what, they are onboard 
a ship that caught them illegally.
    We have drones that have a role. And as Mr. Kurth and 
Senator Inhofe were talking about, there is a networking 
capability where, with GPS and simple phones that have camera 
applications, you can get a whole bunch of even very artisanal 
fisherman to simply take pictures of boats that they see out 
fishing, register where they are, triangulate, if you need to, 
nail down the identification, and use that as evidence to go 
out and enforce.
    So the open ocean is no longer such a safe haven for this 
organized crime activity as it used to be thanks to all these 
steps going forward.
    Let me just ask one question of each of you. I think it is 
a simple yes or no question. Do you model climate change 
projections into your invasive species planning?
    Mr. Nesvik. Senator, as far as modeling climate change with 
regards to invasive species----
    Senator Whitehouse. Is that a factor in your planning model 
I guess would be a better way to ask the question.
    Mr. Nesvik. Certainly. It certainly is.
    Senator Whitehouse. Carter.
    Mr. Roberts. Yes.
    Senator Whitehouse. Mr. Roberts. Sorry.
    Mr. Roberts. Yes. Factoring in climate change into all of 
our work, as the world is changing so much around us, is 
fundamental to making sure that our conservation efforts last.
    Senator Whitehouse. Mr. Kurth.
    Mr. Kurth. It is a factor that we look at in all of our 
work, and sometimes it is very important; other times it is not 
the most significant factor.
    Senator Whitehouse. Ms. Reaser.
    Ms. Reaser. A number of the departments under the Council 
do as well.
    Senator Whitehouse. And Mr. Ullrich.
    Mr. Ullrich. Yes.
    Senator Whitehouse. Great. My time has expired.
    Thank you very much for hosting this hearing. I think this 
is an area where we will be able to do some very good work 
together.
    Senator Inhofe.
    [Presiding.] Thank you, Senator Whitehouse.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Senator Whitehouse, I do have water on either side of Iowa; 
it is the Mississippi River and the Missouri River.
    Senator Whitehouse. That is right. Rivers count too.
    [Laughter.]
    Senator Ernst. Thanks to our panelists today. It really is 
an interesting discussion, so it is good to have you here.
    Dr. Reaser, I will start with you, please. In Iowa, one of 
our newest and most significant invasive species concerns is 
the Palmer amaranth. It is a weed native to southwestern United 
States. It entered into Iowa through conservation seed mixes. 
In early 2016, this weed was in only five of our Iowa counties; 
and by the end of last year it was in 49 Iowa counties. And it 
is expected to be in all 99 counties by the end of this year.
    What concerns me and the agricultural community is that so 
much of this weed's potential impact harms our crops and the 
crop yields, and it has added costs to farmers. Studies have 
shown that it can reduce soybean yields by up to 80 percent and 
our corn yields by up to 90 percent. So that is very, very 
significant for our farmers. It also forces farmers to use 
herbicides and to utilize other eradication methods such as 
tillage on what is traditionally no-till land.
    Is this an issue that is currently being tracked through 
the National Invasive Species Council?
    Ms. Reaser. Thank you for the question. It is a significant 
challenge and area of concern. My team, the Council 
Secretariat, was contacted by the U.S. Department of 
Agriculture with their concerns. We have a non-Federal advisory 
committee that includes stakeholders from seed trade 
organizations, and we did outreach through our relationships to 
alert stakeholders in the seed trade circles that this was an 
issue of concern and asked them to increase the vigilance and 
communications within their networks.
    Senator Ernst. So you would say there is heavy 
collaboration going on between different local, State, and 
Federal agencies?
    Ms. Reaser. I can't speak to the agencies; the State and 
Federal agency representatives would be better spoken in that 
regard, but it has been brought to our attention and we did 
reach out to our stakeholders, recognizing the importance of 
the issue.
    Senator Ernst. Very good. Yes, it is a very, very tough 
issue that we are facing right now, and I know many other 
States are, too.
    Mr. Nesvik, thank you very much for your service. I 
appreciate it greatly, from one Guardsman to another.
    Mr. Nesvik. And you as well, Senator.
    Senator Ernst. Thank you very much.
    When I examine a policy issue that comes in front of us, in 
this case an invasive species such as Palmer amaranth, and the 
management of that, as well as wildlife conservation, one of 
the first things that I look at is how State and local 
governments are working together to inform the Federal 
Government on its policy objectives. As a State wildlife 
official, do you think that the Federal partners that you are 
working with give you the discretion you need to make the 
decisions that are right for you, right for Wyoming and its 
conservation efforts?
    Mr. Nesvik. Well, Senator, that is an excellent question, 
and I guess the short answer to that question would be yes, 
because we have very mutual interests. The Federal agencies 
that we primarily deal with on these types of issues with 
invasive species in Wyoming are agencies that are land 
managers, so they have no interest in having invasive species 
dominating their landscapes and inhibiting their abilities to 
manage their lands.
    So there is a mutual goal there between the State agencies 
and the Federal agencies. As we talked earlier about the 
Partners program of Fish and Wildlife, oftentimes those 
programs are executed with multiple Federal agencies, as well 
as private, nongovernmental partners when those things are 
executed.
    So, again, maybe a little bit longer answer to the short 
answer of yes.
    Senator Ernst. No, that is great. So that is where we see 
more of the collaboration going on, is through those channels, 
then.
    Mr. Nesvik. Yes, Senator.
    Senator Ernst. Very good. Well, I appreciate it. My time is 
expiring. I will yield back.
    Thank you.
    Senator Inhofe. Thank you, Senator Ernst.
    Senator Duckworth.
    Senator Duckworth. Chairman Barrasso, Ranking Member 
Carper, thank you for convening this important conversation. I 
want to extend a warm welcome to all of our witnesses, 
especially to Mr. Ullrich, who I claim as being from Chicago, 
having spent much time there, even though he now lives in a 
neighboring Great Lakes State.
    These gems in the Great Lakes are home to the world's 
largest freshwater system. They provide over 40 million people 
with drinking water, 1.5 people with jobs, and generate 
billions of dollars a year in economic revenue. Approximately 
15 percent of the U.S. gross domestic product originates within 
the Great Lakes basin. And as we have heard from Mr. Ullrich, 
the issue of invasive species is of great concern to the 
region. And while we have had some successes combatting these 
issues, we do need to prioritize issues within the invasive 
species battle.
    Combatting invasive species in the Great Lakes can't simply 
be a zero-sum game, and we have to figure out a road forward 
that balances the role of the Great Lakes in our economy, as 
well as with the environment.
    Mr. Ullrich, it is budget season here in D.C. and any day 
we will get the Trump Administration's proposal to fund the 
Government, including agencies like NOAA and EPA. Are you 
concerned that the budget cuts that we are expecting the Trump 
Administration to propose will hinder the region's efforts 
toward combatting invasive species?
    Mr. Ullrich. Thank you for the question, Senator Duckworth. 
Yes, we are very concerned. The funding for the Great Lakes 
Restoration Initiative has been a key element in keeping the 
Asian carp out of the Great Lakes, which could be one of the 
most devastating invasive species ever to come into the Great 
Lakes. All you have to do is ask the people on the Mississippi 
River and the Illinois River and the Missouri River and these 
other rivers about what they have done to the fishery in those 
areas. That funding has been critically important. I believe 
over $150 million has been spent over the last 7 years to stem 
the tide of the Asian carp.
    The continued funding through the State Department of the 
Great Lakes Fishery Commission is critically important to the 
sea lamprey. You have to keep on top of them; otherwise, they 
are going to come back and take over. They just don't go away.
    So on the one hand the priority of the prevention of the 
Asian carp getting in and, on the other hand, the continued 
management of the sea lamprey is absolutely critical. It would 
be nice if it were free, but it is not.
    Earlier questions came to the issue of the fishery 
community and fishers and commercial fishermen. They are fully 
integrated into the work that we have on the Great Lakes 
Fishery Commission, and they are our eyes, ears, and fishing 
poles out on the lake all the time and have a huge stake in it, 
and we incorporate their thinking. Local, State, Federal 
Government, Tribal Governments all work together on this 
effort. But really the lifeblood is the funding that comes 
through, and this could have a devastating effect on the Great 
Lakes if it were cut to the degree that has been discussed.
    Senator Duckworth. Well, in the case of the Asian carp, it 
is so invasive that you don't even need fishing poles; you just 
hold a net up above your boat and they jump right into it as 
you are driving along the Illinois river.
    Mr. Ullrich. They are quite dangerous for jet skiers, water 
skiers and others. I have seen it myself and it is pretty 
frightening.
    Senator Duckworth. Can you speak a little bit, when it 
comes to the bighead and the silver carp, to the role of locks 
and dams and needed investments in infrastructure, specifically 
integrating lock improvements with technology innovations at 
the locks that could allow barges to move, but also blocking 
the invasive species?
    Mr. Ullrich. One of the key things that we are looking at 
is an existing lock and dam system referred to as Brandon Road. 
Between the U.S. Geological Survey and a number of other 
Federal and State agencies and U.S. Army Corps of Engineers, 
they are looking at a number of different innovative approaches 
to allow the barges through, but to keep the invasive species 
in this situation from getting up to Lake Michigan, and we hope 
eventually to provide two-way protection between the Great 
Lakes and the Mississippi River as well.
    There has been a temporary halt put on that work, which is 
very dangerous because we have been going too long and our luck 
is going to run out if we don't get those systems identified 
and put in place. So here the work with the Corps of Engineers, 
USGS, Fish and Wildlife, the State agencies, I represent local 
government in my day job, and all of this is really important, 
so going ahead on this Brandon Road project is critically 
important.
    Senator Duckworth. Thank you. I very much appreciate you 
being here and your many decades of work on this issue.
    I yield back.
    Mr. Ullrich. Thank you.
    Senator Inhofe. Thank you, Senator Duckworth.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Nesvik, I would like to talk a little bit more about 
Asian carp, as Senator Duckworth brought up the discussion. I 
appreciate the fact that you are here today to share your 
perspective as a State-based professional working to combat 
invasive species. In my home State of South Dakota, the Asian 
carp has become an emerging threat to not only our rivers and 
lakes, but literally, as pointed out earlier, the physical 
safety of boaters. In fact, they are known to leap out of the 
water several feet.
    I understand from your testimony that you are optimistic 
about the use of next generation thermal cyclers to detect the 
species. Relying on your assessment of the beta testing 
currently being conducted, how you envision a State like South 
Dakota potentially employing this type of equipment?
    Mr. Nesvik. Excellent question, Senator. First of all, I 
will tell you that the State of Wyoming is certainly interested 
in helping you with the Asian carp issue in South Dakota. Our 
approach with invasive species to this point has been to try to 
keep them outside of the borders of Wyoming, and so far we have 
been successful with that. Our primary threats have been with 
quagga and zebra mussels.
    But the primary inhibitor with the use of those kinds of 
technologies right now, from a State agency's perspective, is 
the fact that their range for those UAVs that are cost-
effective, those imagers that are cost-effective and affordable 
for a State agency, their ranges and their power requirements 
are such that they are not employable.
    For example, a UAV that can range up to about 15 kilometers 
and has a flight time of an hour is about a $50,000 investment, 
so it is significant. And that is where I think there are 
opportunities for innovation to be able to make those kinds of 
technologies more cost-effective for a State.
    Senator Rounds. So we have a ways to go before that is 
going to be something that is going to be in the picture in 
terms of a good tool to use with regard to invasive species 
like the Asian carp.
    Mr. Nesvik. That is certainly my assessment.
    Senator Rounds. Thank you.
    Mr. Ullrich, thank you for appearing today. During my time 
in the Senate, and on this Committee specifically, we have seen 
the importance of sound science across government. In your 
testimony, you State that without the most accurate and 
complete scientific data, the inroads that were made reducing 
the presence of the sea lamprey would have been impossible.
    You interact with a variety of different Federal agencies 
in your capacity as Chair of the Great Lakes Fishery 
Commission. What additional steps do you think the various 
Federal agencies can take to better develop scientific 
information to manage invasive species?
    Mr. Ullrich. Excellent question, Senator. First of all, I 
want to say that I believe, and I have been in this business 
for 44 years now, that at the Great Lakes Fishery Commission I 
have seen probably one of the best mergers of science and 
policy to come together. I think, No. 1, it is really important 
that policymakers do listen to the scientists. No. 2, 
cooperative efforts among the scientists at Federal, State, to 
a lesser extent local level, but really important is the 
indigenous peoples and Tribal peoples. They bring an important 
perspective to this.
    Obviously, it needs funding, but, very importantly, 
cooperation across whether it is State lines. We work very 
closely with Canada on almost all that we do. Some of the best 
risk assessment work has come out of the Department of 
Fisheries and Oceans in Canada. We incorporate that together.
    I think if you were able to see the cooperative effort 
going on the Illinois River with Federal, State, local 
agencies, tribal groups, Canada, and the U.S., it is one of the 
best examples of cooperation on an effort like that, both at 
the scientific level and at the deployment level. We need much, 
much more of that. And having a common goal is really 
important, and having leadership articulate the importance of 
that goal does help to bring the scientists together with the 
policymakers and with the implementers. So that is very 
helpful.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman. I am 
really grateful that the Committee is holding this hearing. 
Really, this is significantly urgent work, and I am grateful 
for the witnesses we have here.
    Mr. Kurth, I would like to jump in, actually, on another 
issue. I understand that you have been a career professional at 
the U.S. Fish and Wildlife Service for 38 years, is that right?
    Mr. Kurth. I have been working in conservation for 39 
years; 37 with the Fish and Wildlife Service.
    Senator Booker. Obviously, you must have gotten started in 
kindergarten, so I appreciate that.
    Mr. Kurth. Bless you.
    Senator Booker. Earlier in the career, though, you managed 
service for the Alaska Subsistence Program and you were manager 
of the Arctic National Wildlife Refuge for many years, is that 
correct?
    Mr. Kurth. Yes, sir.
    Senator Booker. So you know a little bit about, I think 
that is an understatement, managing wildlife and managing 
national wildlife refuges in Alaska, correct?
    Mr. Kurth. Yes, sir.
    Senator Booker. Are you familiar with the regulation 
published by the Service on August 5th, 2016, relating to the 
non-subsistence take of wildlife on national wildlife refuges 
in Alaska--and take is basically killing--the so-called Alaska 
Rule?
    Mr. Kurth. Yes, sir.
    Senator Booker. Do you have any doubt, or did the 
Department of Interior solicitor, the Department of Justice, or 
anyone express or at least those specific folks express any 
doubt or concern about the statutory authority of the Service 
to issue this rule?
    Mr. Kurth. There was no concern about our authority.
    Senator Booker. I am grateful for that, sir. And the rule 
only applies on national wildlife refuges, and does not apply 
on any private land or State-owned land in Alaska, correct?
    Mr. Kurth. Correct.
    Senator Booker. And what this rule does--I have the rule 
right here--is it prevents inhumane practices on our wildlife 
refuges such as specifically prohibiting the killing of mother 
bears together with their cubs, is that correct?
    Mr. Kurth. That is one of the prohibitions, Senator.
    Senator Booker. It also prohibits killing mother wolves and 
pups in their dens, correct?
    Mr. Kurth. Yes, sir.
    Senator Booker. It prohibits using planes to track and kill 
bears, right?
    Mr. Kurth. Correct.
    Senator Booker. And it prohibits using snares, which are 
these wires hanging around the necks of animals and steel jaw 
leg hold traps to kill bears on these national wildlife 
refuges, correct?
    Mr. Kurth. Correct.
    Senator Booker. Mr. Kurth, I think that this rule is vital, 
and I actually have a lot of, I will even use the word, love 
for one of my colleagues who is an Alaskan Senator who saw this 
more as a sovereignty issue. I don't want to get into that 
aspect of the debate or issue; I really am concerned about the 
inhumane treatment of animals and how this law, this rule 
specifically outlaws what I think are outrageous killings.
    I don't think we should be allowing the killing of baby 
animals on our national wildlife refuges; this, to me, does not 
reflect who we are as a Nation. But I am sure that you know the 
House passed a CRA to abolish the rule and to prevent the Fish 
and Wildlife Services from ever adopting a similar rule to 
prevent these specific cruel practices. In other words, it is 
preventing the Federal Government from having the ability to 
stop what I believe are tragically cruel killing of pups and 
others.
    You know, I think this is outrageous and really hope that 
my colleagues will carefully study this important Fish and 
Wildlife rule and decide not to support a CRA. And the 
intention was not necessarily around sovereignty, I imagine, 
which is something that is worthy of discussion and debate, and 
maybe for Congress to act on, but really the inhumane 
practices.
    And the last question I will ask, Mr. Kurth, in terms of 
wildlife management, sound management, you do not need these 
practices to successfully manage a Federal wildlife refuge, is 
that correct?
    Mr. Kurth. And that is the distinction to be made. The 
State of Alaska has their rules and regulations to manage 
wildlife under their State regulations, and I won't judge that, 
but on national wildlife refuges the laws are different, and we 
enacted the rule that we thought necessary to administer the 
national wildlife refuges in accordance with the Alaska Lands 
Conservation Act and the National Wildlife Refuge System 
Administration Act; not to pass judgment on cruelty, but to 
manage those refuges according to the standards that we have 
been given.
    Senator Booker. OK. And it is not necessary, though, for 
the management to have those kinds of killing of pups and the 
steel traps. It is not necessary to do successful management, 
is that correct?
    Mr. Kurth. When we enacted the regulations, we did not find 
them necessary.
    Senator Booker. Sot. I am grateful, again, for your years 
of service. Thank you for answering my line of questioning.
    Thank you very much, Mr. Chairman.
    Mr. Kurth. Thank you, Senator.
    Senator Barrasso.
    [Presiding.] Thank you, Senator Booker.
    Mr. Nesvik, any additional comments on some of the comments 
you just heard here from the last questioner? Did you want to 
weigh in on this discussion?
    Mr. Nesvik. Mr. Chairman, I guess I wouldn't have anything 
to add. We certainly have a little bit different perspective in 
our State with regards to how national wildlife refuges are 
used, and those kinds of practices are not engaged in our few 
refuges that we do have in the State of Wyoming.
    But, as Mr. Kurth indicated, there are some management 
tools that are humane and necessary, as long as they are 
regulated properly, that can be conducted that relate to some 
of those things that you talked about, Senator.
    Senator Booker. Mr. Chairman, thank you for allowing Mr. 
Nesvik to make that point, because I think it is really 
important that these savagely cruel practices are not 
necessary, whether it is the State managing or the Federal 
Government managing. The reality is these are inhumane 
practices that should be prevented in the United States of 
America on our Federal wildlife refuges, and I am glad to have 
two witnesses now testify that is just not necessary to do.
    Senator Barrasso. Thank you for the clarification.
    I want to thank all of you for being here today to testify.
    Dr. Reaser, I know that Senator Sullivan had a couple of 
questions he is going to submit in writing because he is now in 
the chair as the presiding officer in the Senate, so he wasn't 
able to return for those questions.
    I was not going to head for a second round of questions, 
unless you had any closing comments, Senator Carper.
    Senator Carper. Thanks so much.
    I telegraphed my picture earlier with respect to just a 
practical explanation of how this partnership for fish and 
wildlife works. Could you just give us a practical, like if 
people, landowners, farmers were interested in joining, being 
part of this, how would they go about doing it?
    Mr. Nesvik. Thank you, Ranking Member Carper. There is 
actually a backlog of interested parties, but basically when 
they have an interest they start with their local Fish and 
Wildlife Service person in their State and they begin the 
discussion, the dialog there, develop the project, determine 
what the goals may be, and that is when the other partners, 
specifically in my case, the State wildlife management agency, 
enters into the picture to kind of establish how the project 
may be completed, what the goals of the project may be, and 
other necessary partners. Then that is when kind of the next 
step after that is the development of those other partners so 
that the money that is provided by the Federal Government can 
be leveraged, as Mr. Kurth indicated in his testimony.
    Senator Carper. All right, thank you.
    Do any of you have anything else you want to add, given the 
conversation we have had, that you think is appropriate to add 
before we conclude? Please.
    Mr. Ullrich. Senator, if I might, I have to say again that 
I deeply appreciate the focus on invasive species. I think if 
you talk to most Great Lakes scientists, they would probably 
say that the most devastating impact on the Great Lakes of all 
of the pressures have been invasive species. They have 
seriously disrupted the biological balance, and anything more 
that we can do will really enhance the environment and the 
economy of the Great Lakes region.
    Senator Carper. All right, thanks.
    Anybody else? Yes, please.
    Mr. Roberts. I think it was Senator Inhofe who first raised 
this issue and Senator Whitehouse doubled down on it, and you 
just raised it as well, which is, both in the United States and 
around the world, it is the role of local communities and 
private landowners and indigenous communities who are at the 
heart of the most lasting conservation efforts.
    And the discussion about technologies and approaches to 
deal with poaching and invasives, the more we can rest on and 
build on the ownership of local communities and private 
landowners here and abroad, the more lasting those results will 
be, whether it is our work in the northern Great Plains depends 
upon ranchers and Tribes, and our work in places like Namibia 
and Nepal depends on local communities and indigenous groups, 
and that is the strongest, most lasting form of conservation.
    And I would underscore the points that have been made in 
that regard, and particularly as you think about XPRIZES or 
challenges in the area of technology, to find a way to give a 
nod to local communities and their use of technologies, I would 
encourage you to think about that.
    Senator Carper. Good. Thank you.
    Mr. Kurth.
    Mr. Kurth. I would just like to end with, sometimes it is 
easier to find a conflict between the Federal Government and 
the State, but our conservation ethic requires us to work every 
single day with our State colleagues. There is no stronger bond 
in conservation between the Fish and Wildlife Service and our 
State fish and game colleagues. We can't be successful without 
them, and I just wanted to tip my hat to them.
    Senator Carper. In Delaware, we value our partnership with 
Fish and Wildlife. I think your regional director is Wendi 
Weber.
    Mr. Kurth. Yes.
    Senator Carper. And she has been to our State any number of 
times, along with others of her colleagues. Thank you for that 
partnership.
    Senator Barrasso. Well, thank you to each and every one of 
you for being here to share your testimony with us and to 
answer your questions in such a thoughtful manner. I thought it 
was a very productive hearing. I hope that you felt it was 
worth your time and effort.
    We are going to keep the hearing record open for 2 weeks 
because there are some members that had to come in and out 
based on other obligations, and they will be submitting 
questions for the written record, and we would ask that you try 
to respond quickly to those.
    Thank you. Since there are no other questions, the hearing 
is adjourned.
    [Whereupon, at 11:41 a.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
                                 [all]
</pre></body></html>
